Final Audit Report, “Controls over the Detection, Response, and Reporting of Network
Security Incidents Needed Improvement at Four NASA Centers Reviewed” (Report
No. IG-07-014; Assignment No. A-06-008-00)

On June 19, 2007, we issued the final report on our review of NASA’s controls over the
process of incident detection, response, and reporting. We found that the controls in
place at the four Centers we visited did not provide reasonable assurance that network
security incidents were detected, resolved, and reported in a timely fashion. We made six
recommendations that, when implemented, would provide that assurance. NASA
management concurred and initiated appropriate corrective actions for four of the six
recommendations. For one of the unresolved recommendations, one Center’s Chief
Information Officer (CIO) did not address the allocation of resources for training
personnel responsible for incident detection. For the other unresolved recommendation,
the NASA CIO did not provide an estimated completion date for the actions described,
although we considered the described actions to be responsive. We requested additional
comments concerning those recommendations in response to the final report.

The memorandum contains NASA Information Technology/Internal Systems Data that is
not routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
